Department of Homeland Security
   Ofﬁce of Inspector General

                The State of South Carolina's 

               Management of State Homeland 

              Security Program Grants Awarded 

            During Fiscal Years 2005 through 2007 





OIG-10-29                                      December 2009
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                              Homeland
                                                              Security
                               DEC 1 1 2009
                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General A<;:t of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the State of South Carolina's
Management of State Homeland Security Program grants awarded during Fiscal Years
2005 through 2007. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents. We
contracted with the independent public accounting firm Williams, Adley & Company,
LLP to perform the audit. The contract required Williams, Adley & Company, LLP to
perform its audit according to generally accepted government auditing standards.
Williams, Adley & Company, LLP's report identifies three reportable conditions where
State management of the grant funds could be improved, resulting in four
recommendations addressed to the Administrator, Federal Emergency Management
Agency. Williams, Adley & Company, LLP is responsible for the attached auditor's
report dated October 29,2009 and the conclusions expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation
                                                                      .       of this report.

                                      .£~~.~
                                       Richard L. Skinner
                                       Inspector General
October 29, 2009

Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, SW, Building 410
Washington, DC 20528

Dear Ms. Richards:

Williams, Adley & Company, LLP performed an audit of the State of South Carolina’s
management of the Department of Homeland Security’s State Homeland Security
Program grants for Fiscal Years 2005 through 2007. The audit was performed in
accordance with our Task Order No. TPD-FIG-BPA-07-0013-0071, dated
September 27, 2008. This report presents audit results and includes recommendations to
help improve the State’s management of the audited State Homeland Security Program
grants.

We conducted our audit in accordance with applicable Government Auditing Standards.
The audit was a performance audit as defined by Chapter 1 of the Standards and included
a review and report of program activities with a compliance element. Although this audit
report comments on costs claimed by the state, we did not perform a financial audit, the
purpose of which would be to render an opinion on the State of South Carolina financial
statements or funds claimed in the Financial Status Reports submitted to the Department
of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please contact me at 202-371-1397.

Sincerely,

Williams, Adley & Company, LLP



Charbet M. Duckett
Partner
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1
 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 7 


     State Grants Management Practices Were Generally Effective, But Some

       Improvements Needed ………………………….. .................................................... 7 


     Statewide Goals and Objectives Are Not Measurable ................................................. 7 

     Recommendations ........................................................................................................ 9 

     Management Comments and Auditors’ Analysis ...................................................... 10 


     Support For Threat and Vulnerability Assessments Not Documented 

       and Retained ………………………….. ................................................................ 10 

     Recommendation ....................................................................................................... 11 

     Management Comments and Auditors’ Analysis ...................................................... 11 


     Financial Status Reports Submitted Late ................................................................... 12 

     Recommendation ....................................................................................................... 13 

     Management Comments and Auditors’ Analysis ...................................................... 13 


Appendices
     Appendix A:           Purpose, Scope, and Methodology ..................................................... 14 

     Appendix B:           Organization Chart ............................................................................. 17 

     Appendix C:           Management Comments to the Draft Report ..................................... 18 

     Appendix D:           Report Distribution ............................................................................ 21 


Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FY                    Fiscal Year            

     OIG                   Office of Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Williams, Adley & Company, LLP completed an audit of the State
                      Homeland Security Program grants awarded during Fiscal Years
                      2005 through 2007 to the State of South Carolina. The objective
                      was to determine whether the State distributed and spent
                      Homeland Security Program funds strategically, effectively, and in
                      compliance with laws, regulations, and guidance. The audit
                      included a review of approximately $25 million in State Homeland
                      Security Program grants included in the approximately $44 million
                      of Homeland Security grants that the Federal Emergency
                      Management Agency awarded to the State of South Carolina.

                      Overall, the State did an efficient and effective job of
                      administering the program requirements, distributing grant funds,
                      and ensuring that all available funds were used. The State used
                      acceptable methodologies for assessing threats, vulnerabilities,
                      capabilities, and prioritized needs. The State used capabilities-
                      based planning to identify and address capability gaps, and
                      performed detailed capability assessments. The State has
                      developed an online webpage and monitoring methods to ensure
                      subgrantees’ performance. The State generally administered grants
                      in compliance with guidance and regulations.

                      Improvements are needed in the State’s management of the State
                      Homeland Security Program grants to improve its strategic
                      planning process by developing goals and objectives that are
                      measurable, retain supporting documentation for assessments of
                      threats and vulnerabilities, and improve the timeliness of Financial
                      Status Report submissions. We are making four recommendations
                      to the Federal Emergency Management Agency that, if
                      implemented, should strengthen program management,
                      performance, and oversight. Federal Emergency Management
                      Agency officials verbally concurred with the recommendations.
                      State officials verbally agreed with the recommendations and
                      provided a written response to the recommendations, which is
                      included as Appendix C.




       The State of South Carolina’s Management of State Homeland Security Program Grants
 

                          Awarded During Fiscal Years 2005 through 2007 


                                             Page 1
 

______________________________________________________________________________________



Background
                        The Homeland Security Grant Program is a federal assistance grant
                        program administered by the U.S. Department of Homeland
                        Security (DHS), Grant Programs Directorate within the Federal
                        Emergency Management Agency (FEMA). The current Grant
                        Programs Directorate, hereafter referred to as FEMA, began with
                        the Office of Domestic Preparedness, which was transferred from
                        the Department of Justice to DHS in March 2003. The Office of
                        Domestic Preparedness was subsequently consolidated into the
                        Office of State and Local Government Coordination and
                        Preparedness which, in part, became the Office of Grants and
                        Training, and which subsequently became a part of FEMA.

                        Although the grant program was transferred to DHS, applicable
                        Department of Justice grant regulations and legacy systems were
                        still used, as needed, to administer the program. For example,
                        through Fiscal Year (FY) 2008 the Office of Justice Programs’
                        Grants Management System was used to receive grantee
                        applications and to administer the award and reporting processes.
                        Also, prior to the transfer, the State Administrative Agency entered
                        payment data into the Office of Justice Programs’ Phone Activated
                        Paperless Request System, which was a drawdown payment
                        system for grant funds. That payment system was replaced in
                        April 2007 by FEMA’s Payment and Reporting System, which
                        allows grantees to make payment requests and complete and
                        transmit their quarterly Financial Status Reports online.

                        Homeland Security Grant Program

                        The Homeland Security Grant Program provides federal funding to
                        help states and local agencies enhance their capabilities to prevent,
                        deter, respond to, and recover from threats or acts of terrorism.
                        The program encompasses several interrelated federal grant
                        programs that together fund a range of preparedness activities,
                        including planning, organization, equipment purchase, training,
                        and exercises, as well as management and administration costs.
                        Depending on the fiscal year, the program included some or all of
                        the following:

                        •	 State Homeland Security Program provides financial
                           assistance directly to each of the states and territories to
                           prevent, respond to, and recover from acts of terrorism. The
                           program supports the implementation of the State Homeland


         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 2
 

______________________________________________________________________________________


                            Security Strategy to address the identified planning, equipment,
                            training, and exercise needs.

                        •	 Urban Areas Security Initiative provides financial assistance
                           to address the unique planning, equipment, training, and
                           exercise needs of high risk urban areas, and to assist them in
                           building an enhanced and sustainable capacity to prevent,
                           respond to, and recover from threats or acts of terrorism.
                           Allowable costs for the urban areas are consistent with the
                           State Homeland Security Program and funding is expended
                           based on the Urban Area Homeland Security Strategies.

                        •	 Law Enforcement Terrorism Prevention Program provides
                           law enforcement communities with funds to support the
                           following prevention activities: information sharing to
                           preempt terrorist attacks; target hardening to reduce
                           vulnerability of selected high value targets; recognition and
                           mapping of potential or developing threats; counterterrorism
                           and security planning; interoperable communications;
                           interdiction of terrorists before they can execute a threat; and
                           intervention activities that prevent terrorists from executing a
                           threat. These funds may be used for planning, organization,
                           training, exercises, and equipment.

                        •	 Citizen Corps Program is the department’s grass-roots
                           initiative to actively involve all citizens in hometown security
                           through personal preparedness, training, and volunteer service.
                           Funds are used to support Citizen Corps Councils with efforts
                           to engage citizens in preventing, preparing for, and responding
                           to all hazards, including planning and evaluation, public
                           education and communication, training, participation in
                           exercises, providing proper equipment to citizens with a role in
                           response, and management of Citizen Corps volunteer
                           programs and activities.

                        •	 Metropolitan Medical Response System Program supports
                           jurisdictions in enhancing and sustaining integrated,
                           systematic, mass casualty incident preparedness to respond to
                           mass casualty events during the first hours of a response.
                           This includes the planning, organizing, training, and equipping
                           concepts, principles, and techniques, which enhance local
                           jurisdictions’ preparedness to respond to the range of mass
                           casualty incidents – from chemical, biological, radiological,
                           nuclear, and explosive events to epidemic outbreaks, natural
                           disasters, and large-scale hazardous materials incidents.

         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 3
 

______________________________________________________________________________________


                        •   Emergency Management Performance Grant Program
                            funds are used to support comprehensive emergency
                            management at the state and local levels and to encourage the
                            improvement of mitigation, preparedness, response, and
                            recovery capabilities for all hazards. DHS is responsible for
                            leading and supporting the nation in a comprehensive, risk-
                            based, all-hazards emergency management program, and these
                            performance grant funds are a primary means of ensuring the
                            development and maintenance of such a program. Funds may
                            also be used to support activities for managing consequences of
                            acts of terrorism.

                        State Administrative Agency

                        State governors appoint a State Administrative Agency to
                        administer the Homeland Security Grant Program. The State
                        Administrative Agency is responsible for managing the grant
                        program in accordance with established federal guidelines, and is
                        also responsible for allocating funds to local, regional, and other
                        state government agencies.

                        The South Carolina Law Enforcement Division, an enforcement
                        agency of the South Carolina State government, is the State
                        Administrative Agency for South Carolina. It was established in
                        1947 by Executive Order of the Governor at the request of the
                        South Carolina Sheriffs.

                        On July 31, 2003, the Governor signed a law that added to the
                        South Carolina Law Enforcement Division’s mission the
                        coordination of South Carolina’s counterterrorism effort,
                        coordination of homeland security grants, creation of
                        counterterrorism councils, and service as the Governor’s
                        representative to the United States Department of Homeland
                        Security. This law codified the Division’s role as the official
                        operational authority in the counterterrorism effort to detect,
                        prevent, prepare for, protect against, and respond to violence or
                        threats of violence from terrorist activities.

                        A State Counterterrorism Coordinating Council, Committees of the
                        Council, four Regional Counterterrorism Councils (Pee Dee, Low
                        Country, Midlands, and Piedmont), and County Needs Assessment
                        Committees were established to assist the Division in achieving its
                        mission. The multi-disciplined councils and committees included
                        representatives from law enforcement, emergency management,
                        government, public works, firefighters, emergency medical

         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 4
 

______________________________________________________________________________________


                        services, public health, health care, and many others. South
                        Carolina currently has four counterterrorism regions with at least
                        one Advanced Chemical, Ordnance, Biological, Radiological team;
                        one Urban Search and Rescue team; and one Explosive Ordnance
                        Device team. Other regional teams include the Community
                        Animal Response Teams and the Public Health Epidemiological
                        teams. Regional Counterterrorism Coordinating Councils were
                        established in each of the regions to coordinate homeland security
                        issues. The regional efforts ensure that South Carolina maintains
                        adequate preparedness, prevention, protection, response, and
                        recovery capabilities. The South Carolina Law Enforcement
                        Division’s organization structure is depicted in Appendix B.

                        Grant Funding

                        The State of South Carolina received approximately $44 million in
                        funds from the Homeland Security Grant Program during
                        FYs 2005 through 2007. Of this amount, over $25 million was
                        from the State Homeland Security Program as shown in Table 1.
                        During that timeframe, the South Carolina Law Enforcement
                        Division awarded subgrants to 22 counties within the State’s
                        4 regions. The State used the grant funds primarily to purchase
                        equipment for law enforcement, fire rescue, medical emergency,
                        and other personnel, and to provide preparedness training and
                        exercises. South Carolina did not receive any Urban Areas
                        Security Initiative funding for FYs 2005 through 2007.




         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 5
 

______________________________________________________________________________________


                                                           Table 1

                                    South Carolina Homeland Security Grant Awards
                                            Fiscal Years 2005 through 2007

                                                   Grant Programs (‘000s)
                                                  2005           2006           2007
                                                Homeland       Homeland       Homeland
                           Funded Activity       Security       Security       Security           Total
                                                  Grant          Grant          Grant
                                                Program        Program        Program
                         State Homeland
                                               $ 16,925          $ 4,380        $ 3,820      $ 25,125
                         Security Program
                         Urban Areas            Not             Not            Not            Not
                         Security Initiative Applicable       Applicable     Applicable     Applicable
                         Law Enforcement
                         Terrorism             $ 6,155           $ 4,100        $ 4,380      $ 14,635
                         Prevention Program
                         Citizen Corps
                                               $ 215             $   307        $    233     $       755
                         Program
                         Metropolitan
                         Medical Response      $ 227             $   232        $    258     $       717
                         System Program
                         Emergency
                         Management                             Not            Not
                                               $ 2,762                                       $      2,762
                         Performance Grant                    Applicable     Applicable
                         Program
                                Total          $ 26,284          $ 9,019        $ 8,691          $ 43,994

                        Williams, Adley & Company, LLP completed an audit of the State
                        of South Carolina’s Management of DHS’ FYs 2005 through 2007
                        State Homeland Security Program grants. The objective of the
                        audit was to determine whether the State distributed and spent
                        Homeland Security Grant Program funds strategically, effectively,
                        and in compliance with laws, regulations, and guidance. Nine
                        researchable questions provided by the DHS Office of Inspector
                        General (OIG) established the framework for the audit.
                        Researchable questions at the State Administrative Agency
                        addressed planning, management, and evaluations of grant
                        activities. Appendix A provides additional details on the purpose,
                        scope, and methodology of this audit, including the nine
                        researchable questions.




         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 6
 

______________________________________________________________________________________



Results of Audit
       State Grants Management Practices Were Generally Effective,
       But Some Improvements Needed
               Overall, the State did an efficient and effective job of administering the
               program requirements, distributing grant funds, and ensuring that all
               available funds were used. The State Administrative Agency, along with
               the Strategy and Homeland Security Governance Structures of South
               Carolina, used acceptable methodologies for assessing threats,
               vulnerabilities, capabilities, and prioritized needs. The State used
               capabilities- based planning to identify and address capability gaps, and
               performed detailed capability assessments in Fiscal Years 2005 through
               2007. The State has developed an online webpage and monitoring
               methods to ensure subgrantees’ performance. Furthermore, state
               monitoring includes site visits, daily interactions, surveys, evaluations
               conducted by outside entities, and reviews of exercise programs. All
               subgrantees and jurisdictions were monitored on-site at least once per
               year. Also, the State generally administered grants in compliance with
               grant guidance and regulations, except where noted below.

               However, as demonstrated by the results contained in this report,
               improvements are needed in South Carolina’s management of State
               Homeland Security Program grants. Specifically, the State must improve
               its strategic planning process by developing statewide goals and objectives
               that are measurable and quantifiable. Also, the State needs to ensure
               support for threat and vulnerability assessments is documented and
               retained, and Financial Status Reports are submitted in a timely manner.


       Statewide Goals and Objectives Are Not Measurable
               The State Administrative Agency’s statewide goals and objectives are not
               measurable, cannot quantify improvement, and have no mechanism to
               measure effectiveness. As demonstrated in the following example,
               objectives did not specifically identify and quantify what was to be
               achieved or accomplished, nor did they provide a standard for comparison:




         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 7
 

______________________________________________________________________________________



                 Goal 1: Improve State, regional, and local capabilities to detect and
                 prevent terrorist activity, provide early warning, analyze intelligence,
                 share information, and conduct joint intervention operations.


                 Objective 1.1.12: Develop comprehensive information sharing and
                 intelligence analysis training program.

                          Implementation Steps:

                          o Continue terrorism prevention training for key public and
                            private sector agencies and the public at large.
                          o Continue to provide terrorism awareness and collaborative
                            process training to agency key executives.
                          o Update and distribute terrorism prevention field operating
                            guides to response agencies and public.
                          o Develop public information website that provides
                            continuously updated unclassified terrorism awareness
                            information.
                          o Continue and update training program to provide basic
                            intelligence analysis training to SLED agents and local
                            law enforcement


               The goal does not specify who will take the training, where the training
               will be held, who will develop the training, or when the training will be
               completed. In addition it shows no pre-goal state to show how this
               training will improve the State’s capabilities to prevent terrorism. The
               lack of specific measurable goals and objectives makes it difficult to
               determine whether effectiveness is achieved.

               FY 2006 Homeland Security Grant Program Guidance and Application
               Kit, Section V Award and Reporting Requirements, states that under the
               Government Performance and Results Act, DHS is required to collect and
               report performance information across all of its programs. This includes
               grant programs for which DHS assesses performance information to allow
               the department to ensure that grant funds are achieving positive,
               measurable progress in improving preparedness.

               FEMA’s State and Urban Area Homeland Security Strategy dated July 22,
               2005 states: “An objective sets a target level performance over time
               expressed as a tangible, measurable objective, against which actual
               achievement can be compared, including a goal expressed as a quantitative
               standard value or rate. An objective should be: specific, detailed,

         The State of South Carolina’s Management of State Homeland Security Program Grants

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 8

______________________________________________________________________________________


               particular and focused; measurable; achievable; results-oriented; and time-
               limited.”

               While the State Administrative Agency did form Counterterrorism
               Coordinating Councils to develop, define, and review the State strategy
               and goals, it did not create a mechanism to collect data, nor any
               procedures to analyze such data and maintain documentation to support
               the evaluation. Without the mechanism and proper supporting
               documentation, there is no assurance the information is accurate.

               State Administrative Agency officials stated they were never given any
               indication by FEMA that the strategies were not accurate and measurable
               from the time the strategy was developed to the present. Also, the State
               Administrative Agency officials were under the impression that the goals
               were meant to be broad and achieve several objectives under one goal.
               According to FEMA, no specific guidance was given to states prior to
               2004 on how to create measurable and quantifiable strategies. All
               strategies prior to 2004 were reviewed, approved by FEMA, and
               considered wholly acceptable as submitted. FEMA acknowledges that the
               State provided the information based on the strategies designed during that
               time period. After 2004, FEMA adopted recommendations to assist states
               in creating more quantifiable strategies. Although FEMA approved the
               strategies prepared by South Carolina, these strategies lacked measurable
               goals that would show quantifiable improvement.

               Although the State has policies and procedures for subrecipient
               monitoring, the State does not have a mechanism to collect objective,
               results-oriented data from its 46 counties, and therefore, the State
               Administrative Agency does not have a basis for evaluating the
               effectiveness of grant fund expenditures on the response capabilities of
               first responders. Also, the State Administrative Agency could not
               consider progress already made towards goals and objectives when
               making funding and management decisions about future grant
               expenditures.

               Recommendations
                        We recommend that the Administrator, Federal Emergency
                        Management Agency, direct the South Carolina Law Enforcement
                        Division to:

                        Recommendation #1: Develop strategic goals and objectives
                        applicable to first responder capabilities that are specific,
                        measurable, achievable, results-oriented, and time-limited.


         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 9
 

______________________________________________________________________________________


                        Recommendation #2: Incorporate the goals and objectives into a
                        statewide system for measuring local jurisdiction first responder
                        progress towards achieving the goals and objectives.

               Management Comments and Auditors’ Analysis
                        We received verbal concurrences on the recommendations from
                        FEMA officials. According to FEMA officials, the State
                        volunteered to be part of the Cost-to-Capability initiative in
                        December 2008, and the pilot program that began during Summer
                        2009. The State Administrative Agency officials also agreed with
                        the recommendations. In their written comments, the State
                        officials stated that they intend to update the strategy, goals,
                        implementation steps, and milestones over the next year to make
                        them more specific, measurable, achievable, results-oriented, and
                        time-limited. Also, the State is working to better incorporate the
                        measurement of first responder progress towards achieving goals
                        and objectives.

                        We believe that the State Administrative Agency’s actions address
                        the intent of the recommendations.

                        The Administrator, Federal Emergency Management Agency,
                        needs to provide corrective actions for these recommendations and
                        a plan to implement them within 90 days.


       Support For Threat and Vulnerability Assessments Not
       Documented and Retained
               In preparing the South Carolina annual threat and vulnerability
               assessments, the South Carolina Law Enforcement Division did not
               document and retain supporting data such as emergency call logs for fire
               trucks and ambulances as required by FEMA.

               According to the FY 2006 Office of Justice Programs Financial Guide
               (Part III - Chapter 11: Reporting Requirements) the funding recipient
               agrees to collect data appropriate for facilitating reporting requirements
               established by the Government Performance and Results Act of 1993.
               This law addresses the establishment of strategic planning and
               performance measurement in the Federal Government. The Financial
               Guide further states that the funding recipient will ensure that valid and
               auditable source documentation is available to support all data collected
               for each performance measure specified in the program solicitation.


         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 10
 

______________________________________________________________________________________


               The capability assessment tool that South Carolina used to prepare its
               annual threat and vulnerability assessments was a pilot tool that FEMA
               provided to a few states for testing. South Carolina entered information
               into the pilot tool from various sources, such as emergency call logs from
               first responders. However, the State did not document or retain the source
               documentation for this information and therefore the annual threat and
               vulnerability assessments prepared from the tool cannot be validated. The
               assessment tool instructions did not require the State to use or maintain
               supporting documentation. The tool only required the use of expert
               opinions from the regions, but did not specifically require the State to
               retain the supporting evidence. Recently, South Carolina began to develop
               an assessment tool that will require the data used to be maintained for a
               period of time to support the assessments.

               The lack of supporting documentation maintained by the State prevents
               individuals not present at the time the assessment is performed, such as
               auditors, FEMA, etc., as well as the State Administrative Agency, from
               validating the assessments and ensuring consistency in the assessment
               information from year to year. Also, without documentation, the State
               cannot be assured of the accuracy of the assessments and therefore, cannot
               determine whether progress has been made towards preventing,
               responding, and recovering from acts of terrorism.

               Recommendation
                        We recommend that the Administrator, Federal Emergency
                        Management Agency, require the South Carolina Law
                        Enforcement Division to:

                        Recommendation #3: Implement procedures that require
                        supporting information for capability assessments and other
                        performance measurement tools to be documented and retained for
                        a period of time in accordance with state and federal guidelines.

               Management Comments and Auditors’ Analysis
                        We received verbal concurrences on the recommendation from
                        FEMA officials. The State Administrative Agency officials also
                        agreed with the recommendation. In their written comments, the
                        State officials said that they are developing their own capability
                        assessment tools that will allow them to document supporting
                        information for capability assessments and other performance
                        measurement tools.



         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 11
 

______________________________________________________________________________________


                         We believe that the State Administrative Agency’s actions address
                         the intent of the recommendation.

                         The Administrator, Federal Emergency Management Agency,
                         needs to provide corrective actions for this recommendation and a
                         plan to implement them within 90 days.


       Financial Status Reports Submitted Late
               The State-prepared quarterly Financial Status Report is designed to
               provide FEMA with financial information about the grant program
               expenditures that it can use to monitor grant implementation. As shown in
               Table 2, the State Administrative Agency untimely submitted to FEMA
               16 of 30 Financial Status Reports. We identified that 12 of the 16 late
               reports were for FY 2006 and 2007 grants, for which the reporting
               requirement changed from 45 days to 30 days after the end of the
               reporting period. See Table 2 for details.

                                                               Table 2
                               South Carolina Homeland Security Grant Awards
                                       Fiscal Years 2005 through 2007

                                        Untimely Financial Status Reports
                                                          Days After
                                                   # of                                        Average #
                                     Total # of            Reporting            # of Days
                                                 Reports                                        of Days
                   Grant Award        Reports             Period That            Report
                                                Submitted                                       Report
                                     Submitted             Report is            Delayed
                                                  Late                                          Delayed
                                                              Due
                 FY 2005 State
                 Homeland                 14              4              45      1 to 18          6
                 Security Program
                 FY 2006 State
                 Homeland                 10              8              30      1 to 18         12
                 Security Program
                 FY 2007 State
                 Homeland                 6               4              30      1 to 15         11
                 Security Program
                                                                     Not
                 Total                    30              16                     1 to 18         10
                                                                   Applicable

               Department of Homeland Security FY 2005, 2006, and 2007 Homeland
               Security Grant Program Guidance and Application Kits require the
               reporting of obligations and expenditures on a quarterly basis through the
               Financial Status Report. The report is due within 45 days of the end of
               each calendar quarter for FY 2005 and within 30 days of the end of each
               calendar quarter for FYs 2006 and 2007. A report must be submitted for

         The State of South Carolina’s Management of State Homeland Security Program Grants

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 12

______________________________________________________________________________________


               every quarter an award is active, including partial calendar quarters and
               periods where no grant activity occurs. Future awards and fund
               drawdowns will be withheld if these reports are delinquent.

               During FY 2005, the South Carolina Law Enforcement Division submitted
               Financial Status Reports 1 to 17 days late because it miscalculated the
               report due dates. Additionally, the Division did not revise its procedures
               to effectively and consistently meet the new 30-day requirement for
               FYs 2006 and 2007, but continued to focus on the old 45-day requirement.
               The Division assumed it had 45 days because of the statement on the
               FEMA Financial Reporting System that states “The Financial Status
               Reports must be submitted to the Federal Emergency Management
               Agency within 30 days (with a 15 day grace period) after the last day of
               each calendar quarter,” even though the grant guidance clearly showed the
               requirement as 30 days.

               As a result, FEMA’s ability to effectively and efficiently monitor the State
               Homeland Security Program expenditures for the State of South Carolina
               has the potential to be held back by the untimely submission of the
               Financial Status Reports. Also, delays in financial reporting could result
               in delays accessing grant funds, since the payment systems will prevent
               access to funds if reporting requirements are not met on a timely basis.

               Recommendation
                        We recommend that the Administrator, Federal Emergency
                        Management Agency, require the South Carolina Law
                        Enforcement Division to:

                        Recommendation #4: Establish an internal timeline for the
                        preparation of the Financial Status Report that will meet the
                        mandated submission dates.

               Management Comments and Auditors’ Analysis
                        We received verbal concurrences on the recommendation from
                        FEMA officials. The State Administrative Agency officials also
                        agreed with the recommendation. In their written comments, the
                        State officials said they have developed internal controls to ensure
                        that all financial status reports are submitted on time.

                        We believe that the State Administrative Agency’s actions
                        adequately addressed the recommendation, and therefore this
                        recommendation is considered resolved and closed.


         The State of South Carolina’s Management of State Homeland Security Program Grants
 

                            Awarded During Fiscal Years 2005 through 2007 


                                               Page 13
 

Appendix A
Purpose, Scope, and Methodology

                       The purpose of this audit is to determine whether the State of
                       South Carolina distributed and spent Homeland Security Grant
                       Program funds strategically, effectively, and in compliance with
                       laws, regulations, and guidance. The goal of the audit was to
                       identify problems and solutions that can help the State of South
                       Carolina better prepare for and respond to threats and acts of
                       terrorism. The audit further enabled us to answer the following
                       nine researchable questions:

                       •   Were measurable goals developed from plans?
                       •   Do funded plans link all hazards capabilities to goals?
                       •   Were funds and resources distributed based on goals?
                       •   Does the State accurately measure risk?
                       •   Does the State measure response capability?
                       •   Can the State demonstrate improved performance?
                       •   Were grants administered compliantly?
                       •   Did the State monitor grant programs?
                       •   What innovative practices can be used by other states?

                       The scope of the audit included the following grant programs,
                       described in the Background section of this report:

                       •   FY 2005 State Homeland Security Program
                       •   FY 2006 State Homeland Security Program
                       •   FY 2007 State Homeland Security Program

                       The audit methodology included work at FEMA Headquarters, the
                       State of South Carolina offices responsible for the management of
                       the grants, and various subgrantee locations. To achieve our audit
                       objectives we analyzed data, reviewed documentation, and
                       interviewed the key state and local officials directly involved in the
                       management and administration of the State of South Carolina’s
                       Homeland Security Grant Programs. We conducted 22 site visits
                       in 9 counties representing the state’s 4 regions in order to
                       determine whether program grant funds were expended according
                       to grant requirements and State-established priorities.

                       We conducted site visits at the following state, first responder, and
                       local jurisdictions:

                       •   Beaufort County
                            o Sheriff’s Office



        The State of South Carolina’s Management of State Homeland Security Program Grants
 

                           Awarded During Fiscal Years 2005 through 2007 


                                              Page 14
 

Appendix A
Purpose, Scope, and Methodology

                       •   Charleston County
                             o Hazardous Materials Office
                             o Summerville Fire Department
                       •   Florence County
                             o Emergency Management Division
                       •   Greenville County
                             o Sheriff’s Office
                       •   Horry County
                             o Emergency Management Division
                       •   Lexington County
                             o Emergency Medical Services
                       •   Richland County
                             o Medical Management Response System
                             o Chief Information Office
                             o City of Columbia Fire Department
                             o Research Authority
                             o Geodetic Survey
                             o Department of Labor, License, and Regulation
                             o Division of the State Chief Information Officer
                             o Emergency Management Division
                             o Forestry Commission
                             o Law Enforcement Division
                       •   Spartanburg County
                             o Emergency Preparedness Department
                             o Fire Marshall’s Office
                             o Public Safety
                       •   York County
                             o Emergency Management
                             o City of Rock Hill

                       At each location, we interviewed responsible officials, reviewed
                       documentation supporting the State and subgrantee’s management
                       of the awarded grant funds, and physically inspected some of the
                       equipment procured with the grant funds. We conducted our
                       fieldwork between January 2009 and March 2009 in accordance
                       with Government Auditing Standards as prescribed by the
                       Comptroller General of the United States (Yellow Book-2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.



        The State of South Carolina’s Management of State Homeland Security Program Grants
 

                           Awarded During Fiscal Years 2005 through 2007 


                                              Page 15
 

Appendix A
Purpose, Scope, and Methodology

                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the Standards and included a
                       review and report of program activities with a compliance element.
                       Williams, Adley & Company, LLP was not engaged to and did not
                       perform a financial statement audit, the objective of which would
                       be to express an opinion on specified elements, accounts, or items.
                       Accordingly, we were neither required to nor expressed an opinion
                       on the costs claimed for the grant programs included in the scope
                       of the audit. Had we been required to perform additional
                       procedures or conduct an audit of financial statements in
                       accordance with generally accepted auditing standards, other
                       matters might have come to our attention that would have been
                       reported. This report relates only to the programs specified and
                       does not extend to any financial statements of the State of South
                       Carolina.

                       While the audit work was performed and the report was prepared
                       under contract, the audit results are being reported by the DHS
                       Office of the Inspector General to appropriate FEMA and State of
                       South Carolina officials.




        The State of South Carolina’s Management of State Homeland Security Program Grants
 

                           Awarded During Fiscal Years 2005 through 2007 


                                              Page 16
 

Appendix B
Organization Chart


                    SOUTH CAROLINA LAW ENFORCEMENT DIVISION
 

                             THE HOMELAND SECURITY
 

                          STATE ADMINISTRATIVE AGENCY
 

                                  FY 2005-FY 2007 




                                             CHIEF, SOUTH CAROLINA
                                               LAW ENFORCEMENT
                                                     DIVISION




                                             EXECUTIVE ASSISTANT
                      ADMINISTRATIVE
                                               TO THE CHIEF FOR
                       COORDINATOR
                                             HOMELAND SECURITY




                                                     PROGRAM
                                                     MANAGER




    ACCOUNT                SENIOR ACCOUNT                PLANNER               PLANNER
FISCAL ANALYST II                                      LOW COUNTRY             MIDLANDS




                    PROGRAM                 GRANTS                   PLANNER               PLANNER
                     COORD I                                         PEE DEE               REGIONAL




            The State of South Carolina’s Management of State Homeland Security Program Grants
 

                               Awarded During Fiscal Years 2005 through 2007 


                                                  Page 17
 

Appendix C
Management Comments to the Draft Report



          SOUTH CAROLINA LAW ENFORCEMENT DIVISION



            MAIlK SANFORD                                                 RI-:GINALU I. LLOYD
               aOverlrlJr                                                       Director

        10 September 2009

        Charbet M. Duckett
        Partner Williams, Adley & Company, LLP
        1250 H Street, N.W.
        Suite 1150
        Washington, D.C. 20005

        Dear Ms. Duckett:

        South Carolina's Homeland Security State Administrative Agency (South Carolina Law
        Enforcement Division-SLED) has been happy to host the Department of Homeland
        Security's Audit team over the past few months. During that time, SLED staff members
        from the Office of Homeland Security have provided your staff with all requested
        documents to accomplish this programmatic audit. During the course of the aUdit, the
        Audit Team developed 4 recommendations for South Carolina's benefit. We take them
        in the spirit they were offered and look forward to improving our process. However, we
        feel it appropriate to point out that the first three recommendations were made relative
        to activities previously recognized as outstanding, DHS pilot program involvement
        andlor state-of-the-art on going capability assessment models under development by
        South Carolina and supported by DHS. To clarify our view, we Will list each of the Audit
        Team's recommendations and provide our response.

        Recommendation #1: Develop strategic goals and objectives applicable to first
        responder capabilities that are specific, measurable, achievable, results-oriented, and
        time-limited.
        SoutllCarolina Response to Recommendiltion #1: The South Carolina SAA does
        have some consternation with this recommendation because the 2003 (updated in
        2005) version of the SC Strategic Plan has goals, objectives and implementation steps
        as well as some milestones done in accord with the strategy guidance provided in
        2005-which has not changed. The original plan and 2005 update were recognized by
        DHS as outstanding when written, and have never been criticized - nor has there been
        any mandate to update the strategy since 2005. Nevertheless, the SAA intends to
        update the strategy-goals, implementation steps and milestones-over the next year
        to make them more specific, measurable, achievable, results-oriented, and time-limited.
        We already had it on our schedule to update the plan this Fiscal Year due to the
                    DHS/FEMA focus on metrics and milestones (a good thing) and our changed

            •                                                                     e
                                  An Accredited Law Enforcement Agency
       P.O. Box 21398 I Columbia, South Carolina 29221-1398 I (803)737-9000 I Fax (803) 896·7041




       The State of South Carolina's Management of State Homeland Security Program Grants

                          Awarded During Fiscal Years 2005 through 2007


                                                Page 18

Appendix C
Mana~ement Comments to the Draft Report




        organizational structure.

         Recommendation #2: Incorporate the goals and objectives into a statewide system for
         measuring local jurisdiction first responder progress towards achieving the goals and
        objectives.
        South Carolina Response to Recommendation #2: South Carolina already has a
        statewide system for measuring local jurisdiction progress towards reaching the goals
        and objectives of the strategy that is part of its Capabilties Based Planning continuous
        improvement process. Every grant references specific goals       and objectives from the
        State strategy. Progress towards the goals is reported every 6 months to the SAA in
        terms of programmatic progress reports. The SAA has developed a statewide system
        that includes the Homeland Security Senior Advisory Council and the Strategy
        Implementation Group that tracks progress towards achieving goals and recommends
        resource allocations to build capabilties that mitigate risks.
        The State is working to better incorporate the measurement of first responder progress
        towards achieving goals and Objectives. Over the past year, the SAA has developed an
        Electronic Grant Management System progress report that tracks each project
        milestone, target capabilty metric, and progress towards accomplishment of strategy
        goals and objectives, These reports will be required starting October 2009 and wil be
         due every quarter. This system wil allow the SAA to see the percent complete of each
         strategy linked project, milestone and percent contribution to capability gap reduction-
         thus measuring first responder progress towards achieving the goals and objectives of
         the strategy.
 


         Recommendation #3: Implement procedures that require supporting information for
         capabilty assessments and other penormance measurement tools to be documented
         and retained for a period of time in accordance with state and federal guidelines.
         South Carolina Response to Recommendation # 3: South Carolina recognizes the
         need to continually improve aspects of capabilty assessments. However, the auditors
         took issue with the lack of documentation on the pilot capability assessments. As these
         were pilot capability assessments, there was no requirement from DHS to perform the
         assessments, nor was there a requirement for documentation other than listing the
         subject matter experts taking part in the assessments (which was provided in all
         assessments).
         Although not a DHS requirement, in 2006 SC piloted a county by county capability
         assessment in all 46 counties of the State with the county Sheriff, Emergency
         Management Director, Emergency Medical Services, Police Chief, Fire Chief and other
         emergency responder representatives. Every DHS Target Capability and their
         associated metrics were di.scussed with discipline leaders. The values of the metrics
         were obtained from the local experts and were carefully recorded as directed by DHS.
         The results were recognized as significant and SC was asked to brief  the results at the
         2006 regional Homeland Security Conference sponsored by DHS as a best practice. In
         2008, SC piloted the "best" capabilty assessment tool offered by DHS to perform
         another thorough statewide capabilty assessment (DHS pilot program) in all counties




        The State of South Carolina's Management of State Homeland Security Program Grants
                            Awarded During Fiscal Years 2005 through 2007

                                                 Page 19
 

Appendix C
Mana~ement Comments to the Draft Report




        as before considering all 37 Target Capabilities and all metrics. DHS guidance was
        carefully followed and a detaîled capabilty assessment was obtained.
        The SAA is developing capabilty assessment tools (over the past     3 years that are
        quantitative in nature) that are based on the risk, that consider all costs to include life
        cycle in addressing the required capabilty. This work is ongoing, quantitative and well
        documented. SC wil continue improving and developing the capabilty based planning,
        capabilty assessment techniques and metrics in order to determine progress. Some of
        these methods and techniques were recognized as outstanding and have been
        supported by DHS to quantify the 37 target capabilties (Le. SC's Capability Calculators
        developed with the assistance of the Center for Naval Analysis Corporation). For this
        work, the SC program manager was asked to present at the National GPD conference
        in December of 2008.
         DHS has also lauded South Carolina's exercise program-that has been used to test and
         document many of SC's emergency preparedness capabUities. Over 30 exercises
         have been conducted utilizing Homeland Security funds-each having a detaîled alter
         action report documenting the shortfalls & successes, problems with plans and
         guidance, with remediation steps proposed. AdditionallY, SC has focused on validation
         and testing of many of its major response teams. For instance, the State's 14 chemical,
         ordnance, biological, radiological teams were intensely reviewed and tested for several
         months by an outside agency In which detailed documentation was provided on
         positives and negatives for the teams. Additionally, SC also documents programmatic
         progress for each project with Bi-Annual status reports, This is all in accord with the
         Government Performance and Results Act of 1993.

         Recommendation #4: Establish an internal timeline for the preparation of the Financial
         Status Report that wil meet the mandated submission dates.
         South Carolina Response to Recommendation # 4: DHS changed the required
         reporting timeframe for Federal Status Reports (FSR) from 45 days after the end of the
         quarter to 30 days. During this transition, DHS allowed a grace period of 15 days for
         acclimation to the new reporting requirement. Although South Carolina's FSRs were
         submitted within the DHSgrace period, checks have been implemented into our
         financial Standard Operating Procedures so that all reports wil be submitted within 30
         days after the end ofthe quarter.
         This concludes South Carolina's responses to the Audit Team's recommendations. The
         audit has caused us to reflect on and to do a better job with the resources we have; so,
         we thank you! If you should have any questions, or if we can assist you, please contact
         Major Scott Pril at 803-896-7718.

         Sincerely,
           --. "../ /..r-~­
                 r-' ,.__­
          /C:::.::,,~'? ""'.:.~7 __)

         Reginald Lloyd

         Director




        The State of South Carolina's Management of State Homeland Security Program Grants
                               Awarded During Fiscal Years 2005 through 2007

                                                        Page 20

Appendix D
Report Distribution


                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff for Operations
                       Chief of Staff for Policy
                       Deputy Chiefs of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




        The State of South Carolina’s Management of State Homeland Security Program Grants
 

                           Awarded During Fiscal Years 2005 through 2007 


                                              Page 21
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
